1

I

h
Supreme Court, U.S.
FILED

OCT 0 2 2C23
OFFICE OF THE CLERK

No.

5o-15^7

IN THE

SUPREME COURT OF THE UNITED STATES
MICHELLE STOPYRA YANEY,
Petitioner,
v.
THE STATE BAR OF CALIFORNIA,
Respondent.

On Certiorari to the California Supreme Court

PETITION FOR WRIT OF CERTIORARI

There is a Related Case in this Court, Case 20*1157

Michelle Stopyra Yaney
3905 State Street #7*365
Santa Barbara Ca. 93105
Ph.: 805*453*1376,
Propria Persona

RECEIVED

APR 2 9 2021

11

THE FIRST QUESTION PRESENTED
The question isIs communication to facilitate understanding regarding
procedure by one who suffers from a mental disability, such as
anxiety disorder, a statutory request for access to a government
agency under the Americans with Disabilities Act?
The Americans with Disabilities Act (ADA) became law in
1990. The ADA is a civil rights law .
Title II of the ADA prohibits discrimination against
qualified individuals with disabilities in all programs, activities,
and services of public entities. It applies to all state and local
governments, their departments and agencies, and any other
instrumentalities or special purpose districts of state or local
governments. It clarifies the requirements of section 504 of the
Rehabilitation Act of 1973 as amended, for public
transportation systems that receive federal financial assistance,
and extends coverage to all public entities that provide public
transportation, whether or not they receive federal financial
assistance. This title outlines the administrative processes to
be followed, including requirements for selfevaluation and
planning! requirements for making reasonable modifications to
policies, practices, and procedures where necessary to avoid
discrimination! architectural barriers to be identified! and the
need for effective communication with people with hearing,
vision and speech disabilities. This title is regulated and
enforced by the U.S. Department of Justice.

Ill

THE SECOND QUESTION PRESENTED
U.S. CONST. AMEND. I
Congress shall make no law respecting an
establishment of religion or prohibiting the free
exercise thereof* or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress
of grievances. "Scholars and jurists agree that the
First Amendment right "to petition the Government
for a redress of grievances" includes a right of court
access.

THE CALIFORNIA CONSTITUTION
ARTICLE I
DECLARATION OF RIGHTS
[SECTION 1-32] Article 1 adopted 1879.)
SEC. 2.
Every person may freely speak, write, and
publish his or her sentiments on all subjects, being
responsible for the abuse of this right. A law may not
restrain or abridge the liberty of speech or press.

IV

The State Bar of California is governed by the
California Supreme Court.
The State Bar has a new rule of law, Rule 8.4.1
on Prohibited Discrimination, Harassment and
Retaliation (Rule Approved by The California Supreme
Court, Effective November 1, 2018).
The new rule allows all citizens to allege they have
suffered discrimination and retaliation due to the actions
of an attorney. The rule states in number four of its
comment section,
"This rule does not apply to conduct protected by
the First Amendment to the United States
Constitution or by Article I, section 2 ofthe California
Constitution."

The question is*
Whether the State Bar of California’s new rule
violates an individual's First Amendment right to
allege discrimination by excluding the behavior of an
attorney protected under the First Amendment?

THE THIRD QUESTION PRESENTED
All citizens have the right to petition for an
extraordinary writ. It is established under
uniformity that all courts have broad discretion
to grant or deny a writ of mandate.
The rule of law in the State of California by
1879, when California's current constitution was
ratified, unequivocally vested the Supreme Court
with "power to issue writs of mandamus,
certiorari, prohibition, and habeas corpus, and
all other writs necessary or proper to the
complete exercise of its appellate jurisdiction."
(Cal. Const, of 1879, art. VI, § 4.) California's
newly enacted Code of Civil Procedure, which to
date provides: "Writ" means an order or precept
in writing, issued in the name of the people, or of
a court or judicial officer. (Id. at§ 17, subd. (b)(14),
emphasis added.
The question is:
Whether the California Supreme Court had
the same broad discretion to issue a summary
denial on case S263130 a writ of mandate when
the court itself participated in relief granted to
petitioner by its own lower agency, that was still
pending at the time of the summary denial?

VI

PARTIES TO THE PROCEEDING
Rule 14.1(B)(1)

Michelle Stopyra Yaney is the petitioner m
California Supreme Court case 8263130 a writ of
mandate.
Michelle Stopyra Yaney is the petitioner in
California Supreme Court case 8263808 a summary
denial of an Application for Relief from Default. The
order requesting review is of an Appeal decided by
the State Bar of General Counsel, case 16-23428.
Chief Justice Tani Cantil-Sakauye,
Supreme Court of California
350 McAllister Street
San Francisco, Ca. 94102-4797
415-865-7000
Office of General Counsel,
State Bar of California
180 Howard St.
San Francisco, Ca. 94105
213-765 1000

Vll

CORPORATE DISCLOSURE STATEMENT
Rule 14.1(b)(ii)
♦

Petitioner, Michelle Stopyra Yaney, is not
investedin any corporation and is a citizen of the
State of California.

Vlll

TABLE OF CONTENTS
FIRST QUESTION......................

11

SECOND QUESTION..................
A) U.S. Const. Amend. 1
B) Cal. Const. Article I
Declaration of Rights

in
in

THIRD QUESTION.........................................

v

PARTIES TO THE PROCEEDINGS..............

VI

CORPORATE DISCLOSURE STATEMENT ...

Vll

TABLE OF AUTHORITIES...............................

X

LIST OF APPENDICES......................................

Xll

WRIT OF CERTIORARI....................................

1

DECISIONS BELOW..........................................

1

APPENDIX A PART 1.........................................

1

APPENDIX A PART 2

2

APPENDIX A PART 3

2

APPENDIX B PART 1

2

ADDITIONAL DOCUMENTS IN SUPPORT

4

APPENDIX C PART 1....................................

4

APPENDIX C PART 2

4

APPENDIX C PART 3

5

APPENDIX D PART 1

5

APPENDIX E PART 1

6

APPENDIX F PART 1

6

STATEMENT OF CASE

7

JURISDICTION

10

in

IX

ALL WRITS ACT..................................................

13

STATUTES AND CONSTITUTIONAL
PROVISIONS...................................................

14

U. S. CONST. AMEND. I...............................

14

CAL. CONST. ART. I.......... .............................

14

ARTICLE I DECLARATION OF RIGHTS.....

14

STATE BAR OF CALIFORNIA NEW RULE
OF LAW 8.4.1 PROHIBITED
DISCRIMINATION, HARASSMENT AND
RETALIATION.................................................

17

STATEMENT OF PROCEDURE..........................

20

REASONS FOR GRANTING THE PETITION...

23

CONCLUSION.......................................................

28

VERIFICATION....................................................

29

WORD COUNT......................................

30

X

TABLE OF AUTHORITIES
Cayuga Indian Nation ofN.Y. v. Pataki,
413 F.3d 266, 273, 280 et seq........

26

Lawrence v. Chater,
516 U.S. 163, 167 (1996)...................

26

Hawkins v. United States
543 U.S. 1097 (2005) .......................

28

Tennessee v. Lane,
541 U.S. at 509 (et seq)..................

25

Tyler v. Cain,
533 U.S. 656, 666 (2001)................

26

United States v. Booker,
543 U.S. 220 (2005)..........................

27

Vicknair v. Formosa Plastics Corp.,
98 F.3d 837, 839 (5th Cir. 1996)...

26

Youngblood v. West Virginia

547 US 867 (2006)............................

27

XI

CONSTITUTIONAL PROVISIONS
U.S. Constitution Amendment I

i, 5, 31, 32

STATUTORY PROVISIONS
American with Disabilities Act (ADA) of 1990...

ii,15,
20 (footnote)

28 U.S.C §262...............................................................

13

28 U.S.C. § 1257.............................................................

12

28 U.S.C. § 1651(a) ......................................................

13

28 U.S.C. § 1331 .......................................................

13

42 U.S.C. § 1983 ....................................................

13

42 U.S.C. §262........................................................

13

U.S. Cont. Amend I ............................................

iii, 8

U.S. Cont. Amend. Article 1, Sec. I....................

14

U.S. Cont. Amend. Article 1, Sec. 11(a)....................

14

Cal. Const. Art. 1 — Sec. 32....................................

iii, 14

Cal. Const, of 1879, Art. VI, §4.........................

v

Cal. Const, of 1879, Art. VI, §17, subd. (b)(14)

v

Cal. Gov’t Code §12955.3.....................................

1

Rehabilitation Act of 1973, Section 504 ............

11

Supreme Court Rule 10..........................................

12

Supreme Court Rule 11...........................................

13

Title XVI of the Social Security Act, Sec.
1614(a)(3)(A)..............................................................

13

Xll

ADDITIONAL AUTHORITIES
California Rules of Professional Conduct,
State Bar of California Rule 8.4.1.......

in

1

“As a man is said to have a right to his property,
he may be equally said to have a property in his
rights."
James Madison

Writ of Certiorari
♦
Michelle Stopyra Yaney hereby petitions for a writ
of certiorari to review the final judgment of the California
Supreme Court on case S263130. Petitioner additionally
requests this court invoke its jurisdiction over an order
decided by the State Bar of California within case
S263130.
Petitioner is ’'disabled*' as defined in Section
1614(a)(3)(A) of Title XVI of the Social Security Act
within the meaning of 42 U.S.C.§3602(h) and Cal. Gov't
Code §12955.3.
DECISIONS BELOW

APPENDIX A
A final order on case S263130 a writ of mandate
dated September 23, 2020, the order is a summary denial
by the highest State Court, the California Supreme Court.

2

APPENDIX A PART 2
The July 13, 2020 order granting the submission of
additional evidence by the respondent the State Bar of
California in case S263130. A copy of the notice was
addressed to the California Supreme Court Clerk of the
Court, Jorge Navarrete, is included.
APPENDIX A PART 3
The California Supreme Court docket on case
S263130. The docket stated the following regarding the
relief granted to petitioner, "It indicates that the State
Bar has granted your request for further review ofyour
complaint against attorneys in State Bar case numbers
19000041 and 19015840."
APPENDIX B
The denial of an ADA accommodation for
communication to facilitate understanding regarding the
procedure on case S263130 by the Office of General Counsel
State Bar of California dated November 17, 2020. The
order stated the following,
"In your letter, you volunteered that you suffer
from a "mental anxiety disorder" and requested that
a CRU attorney speak to you verbally over the phone
about your complaints. Specifically, you state that
you want to have a better understanding of why your
complaints were closed by OCTCas "understanding is

3

something that helps minimize anxiety and without it I
cannot cope." Title II of the Americans with Disabilities
Act (ADA) requires that public agencies, such as the
State Bar, provide accommodations to members of the
public who are disabled, so that they may have equator
equivalent access to the public services andprograms
that are offered to the generalpubhc. TheADA requires,
however, that qualified individuals with disabilities
articulate how their impairments limit their ability to
access the pubhc services they seek.
In your letter, you do not state that your
impairment limits your ability to effectively
communicate in writing, or to physically send
documents or other supporting evidence via US Post
or electronic mail. Rather, you state that you wish to
speak with a CRUattorney over the phone because doing
so will Jessen your anxiety and henceallow you to cope
better.
As previously noted, Title II of the ADA only
requires the State Bar to accommodate your anxiety
disorder if that condition keeps you from accessing
the CRUprocess. As you have described it, the impact
ofyour impairment, while regrettable, simply does
not limit or restrict your access to CRU or the above *
described process it uses to review closed attorney
complaints. Consequently, the State Bar denies your
requested accommodation. Please feel free to contact
me at the address, email or telephone number above
ifyou wish to discuss my decision.

4

This Appendix also contains the recent email
communication of the State Bar of California as the
California Supreme Court already decided the case.

DOCUMENTS IN SUPPORT ONLY

APPENDIX C PARTI
The order on case S263808 rendered on August 14,
2020 is here in support only. The order is regarding an
application for default submitted to the California
Supreme Court during case S263130. The order requested
review was on the appeal decision of the first complaints
filed by petitioner for the same firm of attorneys as case
S263130.
APPENDIX C PART 2
The documents verify that petitioner did not receive
the August 14, 2020 decision until August 20, 2020. This
Appendix also contains evidence of communication
regarding petitioner's mail service that verifies the
August 13, 2020 was all that was sent by the California
Supreme Court.

5

APPENDIX C PART 3
The Supreme Court of California letter of August
13, 2020 on petitioner's communication to the court
stated, "Dear Ms, Yaney- No action may be taken on
your letter received electronically on August 13, 2020.
The application for relieffrom default, Bled August 10,
2020, is still pending under the case number S263808."
Petitioner has included the letter she wrote to
the California Supreme Court dated August 7, 2020,
within this Appendix.
APPENDIX D
The Supreme Court of California Decision dated
June 30, 2020, stated, Your documents received
electronically on May 26, 2020, and June 23, 2020,
regarding the above • referenced matter, cannot be Bled
for the reason that this court has considered all the
materials previously submitted. You were advised that
your petition was not in compliance. Please rest assured,
however, that this Court considered the documents, and
the contentions made therein expressed the Court's
decision in the matter."

6

APPENDIX E
This letter is important because the senior deputy
clerk of the California Supreme Court chose to
communicate with petitioner via her personal email
only. This is similar to how the State Bar requested
petitioner submit the granted relief in case S263130.
The letter is dated May 29, 2020, from the Senior
Deputy Clerk of the Supreme Court of California, Mr.
Robert Toy. The letter states he is unaware of what
petitioner is trying to file. The stamped cover of the
filing is included in this Appendix and it states,
"Application for the Relief from Default to File an
Untimely Petition for Review for New Law."
APPENDIX F
The order of State Bar General Counsel on case 16*
23428 and a fax sent by the attorney for the State Bar
with a Case Re: Walker. The case is in regard to the
efforts of a pro per litigant and how they are denied
due to procedure.

7

STATEMENT OF CASE
Rule 14.1 (g)
♦

The State Bar gave explicit instructions for
additional evidence to General
petitioner to send
Counsel’s secretary by email. Petitioner did this and
the return emails of General Counsel kept reassuring
her that everything was going into her file, she then
asked, "what is my case number" and what does it
mean, "into my file?"
After the summary denial by the California
Supreme Court of case S263130 the State Bar issued a
letter in the form of an email to petitioner stating they
do not file stamp copy anything sent via email and the
California Supreme Court has already decided the
case.
For one who is pursuing their rights in a court to
know why the rule of law is not being applied is
everything. All the participants know why they denied
petitioner normal procedure. It was what was told to
them or an investigation of petitioner she was unaware
of. It is simple now that petitioner understands! one
cannot be allowed the protection of a court if they are
perceived as breaking the law at the time they are
asking for the protection of a court. What is not clear is
what do any of us do to find out and address it, so we
don’t lose jurisdiction?

8

It is a helpless feeling to have one’s own attorney
turn away and be denied procedure a law states one
should be given not knowing why so it may be mended.
All the investigations were dismissed in
petitioner’s favor however petitioner has a criminal
record she cannot clear up due to the underlying first
judgment in this case. When petitioner’s name is
googled on the internet it is bad she is labeled as
“disable” not disabled. Petitioner does not drink alcohol
and she is labeled as a “wino” a mugshot appears
everywhere just by googling her name.
There is the tangible harm to others that must not
continue. Petitioner has her elderly mother with her
and she is fighting for her life having been diagnosed
with cancer that went unchecked a long time.
Petitioner was unable to access her mother in time to
prevent a feeding tube from being necessary. This is
because each time petitioner tried to visit her mother
her cousin who is an attorney, and stood to gain
financially would mislead law enforcement. It was easy
with petitioner’s record.
Petitioner’s uncle who owned valuable property
died not understanding as petitioner’s mother did not
that he signed a living will drawn up by petitioner’s
cousin that did not allow him medical care. Petitioner
would have prevented this.

9

The reason petitioner is in this court and the
heart of; the statement of; this case is simple: and it is
that, even though this court has ruled several times
against discrimination of one's class of person, we as a
country have not come that far yet.
Petitioner asks this court to consider recent events
m the death of George Floyd. What if police officer
Derek Chauvin was taught procedure because of a law
to speak in a manner that gave time for understanding
as communication. And what if George Floyd knew he
would be allowed this under the law for just a few
minutes?
The respondent the State Bar of California granted
petitioner relief in this case, how could it not give hope to
many others who are acting as a pro per? The relief
was in the high state court and because of; this, it was
extraordinary.
The California Supreme Court could have cited the
relief granted to petitioner by the respondent and
dismissed the case, there was no need to summarily
deny it, after all, it was the truth.

10

It is written that Chief John Roberts wants us to
explain what we want from this court. Petitioner
respectfully requests that if a question is not worthy of
review this court grant GVR.
Petitioner needs to go back to the California
Supreme Court so she may understand how the State Bar
has not investigated when it granted a motion for judicial
notice under exceptional evidence that showed
petitioner’s own attorney altered documents to include
removing her anxiety disorder which resulted in her
losing the right of a new trial. The new trial was for
petitioner’s first home that she owned.
Petitioner needs communication to understand all
these years later why the procedure of this case, meaning
the confusing mailings, orders and letters and why it
allowed its lower agency to generate relief in a format
that it did not need to uphold addressing it to the
court. Lastly, if there is anything that needs to be
cleared up so the court may consider petitioner, she
needs to know.

JURISDICTION
♦

The Supreme Court of California entered a final
judgment on case S263130 dated September 23, 2020.
The California Supreme Court does not allow for a
rehearing or a reconsideration of a final judgment such as
what is brought to this petition.

11

The order on case S263808 is here in support only.
Petitioner wishes to respect this court removing it as
requested review due to being untimely. The order was on
an application for default submitted to the California
Supreme Court. It was rendered during the pendency of
case S263130 and it was dated August 14, 2020. The
order was on the appeal decision of the first complaints
filed by petitioner for the same firm of attorneys as case
S263130. Petitioner did not believe the State Bar could
effectively review anything without looking at their first
decision.
Petitioner brings a second order of the State Bar of
California. Petitioner does so because she does not believe
the California Supreme court has jurisdiction due to the
procedure within this case, case S263130. The State Bar
issued the order on Nov. 17, 2020 on an ADA
accommodation request submitted by petitioner. The
accommodation was for communication to facilitate
understanding. The request was for the attorney
reviewing petitioner's submission of relief granted by the
State Bar to communicate facilitating understanding as
to what happened to the relief.
This Court's jurisdiction is under the United States
Constitution, Article III, Section V The judicial power of the
United States, shall be vested in one Supreme Court,and
such inferior courts as the Congress may from time to
time ordain and establish.

12

This Court's jurisdiction for Certiorari is under 28
U.S.C. § 1257. (a) Final judgments or decrees rendered
by the highest court of a State in which a decision could
be had, may be reviewed by the SupremeCourt by writ of
certiorari.
Rules 10 and 11 (hereinafter, "Rule 10" and
Rule 11). Rule 10. Considerations Governing
Review on Certiorari Review on a writ of certiorari
is not a matter of right, but of judicial discretion.
A petition for a writ of certiorari will be granted only
for compelling reasons. The following, although
neither controlling nor fully measuring the
Court's discretion, indicate the character of the
reasons the Court considers:
a) United States Court of Appeals has entered a
decision in conflict with the decision of another
United States court of appeals on the same
important matter? has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort? or has so
far departed from the accepted and usual course
of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an
exercise of this Court's supervisory power?
b) a state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state court
of last resort or of a United States court of
appeals.
c) A state court or a United States court of appeals
has decided an important question of federal law
that has not been but should be, settled by this

13

Court, or has decided an important federal
question in a way that conflicts with relevant
decisions of this Court. A petition for a writ of
certiorari is rarely granted when the asserted
error consists of erroneous factual findings or the
misapplication of a properly statedrule of law.
Rule 11 because this case "is meant to prevent
further harm as to justify deviation from normal
appellate practice and to require immediate
determination of this court."

THE ALL-WRITS ACT

The All-Writs Act, 28 U.S.C.§ 1651(a), which
authorizes federal courts to issue "all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law," This Court
has authority to provide injunctive relief and declaratory
relief under the following statutes and laws' 28 U.S.C. §
1331, 42 U.S.C. § 1983. § 262 of the Judicial Code, U.S.C.
Title 28, § 377), provides that this Court and other federal
courts: "Shall have the power to issue all writs not
specifically provided for by statute, which may be
necessary for the exercise of their respective jurisdictions,
and agreeable to the usages and principles of law."

14

STATUES AND CONSTITUTIONAL
PROVISIONS

U.S. CONST. AMEND. I "Congress shall make
no law respecting an establishment of religion or
prohibiting the free exercise thereof! or abridging the
freedom of speech, or of the press; orthe right of the
people peaceably to assemble, and to petition the
Government for a redress of grievances. "Scholars
and jurists agree that the First Amendment right "to
petition the Government for a redress of grievances"
includes aright of court access."

CALIFORNIA CONSTITUTION EQUAL PROTECTION
ARTICLE 1 [Section 1 * Sec. 32]
(Article 1 Adopted 1879.)
Section I. All people are by nature free and
independent and have inalienable rights. Among
these are enjoying and defending life and liberty,
acquiring, possessing, and protecting property, and
pursuing and obtaining safety, happiness, and
privacy.

ARTICLE I DECLARATION OF RIGHTS
[SECTION 1 - SEC. 32]
Article 1 adopted 1879.)
SECTION II. (a) Every person may freely speak,
write and publish his or her sentiments on all
subjects, being responsible for the abuse of this
right. A law may not restrain or a bridge liberty of
speech or press.

15

The Americans with Disabilities Act (ADA)
became law in 1990. The ADA is a civil rights law
that prohibits discrimination against individuals
with disabilities in all areas of public life, including
jobs, schools, transportation, and all public and
private places that are open to the general public. The
purpose of the law is to make sure that people with
disabilities have the same rights and opportunities as
everyone else.
The ADA gives civil rights protections to
individuals with disabilities similar to those provided
to individuals on the basis of race, color, sex, national
origin, age, and religion. It guarantees equal
opportunity for individuals with disabilities in public
accommodations, employment, transportation, state
and
services,
government
and
local
telecommunications. The ADA is divided into five
titles (or sections) that relate to different areas of
public life.
In 2008, the Americans with Disabilities Act
Amendments Act was signed into law and became
effective on January 1, 2009. The ADA made a
number of significant changes to the definition of
“disability.” The changes in the definition of disability
in the ADA apply to all titles of the ADA, including
Title I (employment practices of private employers
with 15 or more employees, state and local
governments, employment agencies, labor unions,
agents of the employer and joint management labor
committees); Title II (programs and activities of state
and local government entities); and Title III (private
entities that are considered places of public
accommodation).

16

Title II (State and Local Government)
Nondiscrimination on the Basis of Disability in
State and Local Government Services
Title II of the ADA prohibits discrimination
against qualified individuals with disabilities in all
programs, activities, and services of public entities. It
applies to all state and local governments, their
departments and agencies, and any other
instrumentalities or special purpose districts of state
or local governments. It clarifies the requirements of
section 504 of the Rehabilitation Act of 1973, as
amended, for public transportation systems that
receive federal financial assistance, and extends
coverage to all public entities that provide public
transportation, whether or not they receive federal
financial assistance. It establishes detailed standards
for the operation of public transit systems, including
commuter and intercity rail (e.g., AMTRAK).
This title outlines the administrative processes
to be followed, including requirements for selfevaluation and planning; requirements for making
reasonable modifications to policies, practices, and
procedures where necessary to avoid discrimination;
architectural barriers to be identified; and the need
for effective communication with people with hearing,
vision and speech disabilities. This title is regulated
and enforced by the U.S. Department of Justice.

17

THE STATE BAR OF CALIFORNIA NEW RULE
OF LAW 8.4.1 PROHIBITED DISCRIMINATION,
HARASSMENT AND RETALIATION
(Rule Approved by The California Supreme Court,
Effective November 1, 2018)
Rule
8.4.1
Prohibited
Harassment and Retaliation

Discrimination,

In representing a client, or in terminatingor
refusing to accept the representation of any
client, a lawyer shall not:
(1)

unlawfully harass or unlawfully discriminate
against persons* on the basis of any protected
characteristic; or

(2)

unlawfully retaliate against persons.

(a) In relation to a law firm's operations, a lawyer shall
not-’

(1)

on the basis of any protected characteristic,

(1)

unlawfully discriminate or knowingly* permit
unlawful discrimination;

(ii)

unlawfully harass or knowingly* permit theunlawful
harassment of an employee, an applicant, an unpaid
intern or volunteer, or a person* providing services
pursuant to a contract; or

(iii)

unlawfully refuse to hire or employ a person*, or
refuse to select a person* for a training program
leading to employment, or bar or discharge a person*
from employment or from a training program leading
to employment, or discriminate against a person* in
compensation or in terms, conditions, or privileges of
employment; or

(2)

unlawfully retaliate against persons.

18
(b)

For purposes of this rule:

(1)

"protected characteristic" means race, religious creed,
color, national origin, ancestry, physical disability,
mental disability, medical condition, genetic
information, marital status, sex, gender, gender
identity, gender expression, sexual orientation, age,
military and veteran status, or other category of
discrimination prohibited by applicable law, whether
the category is actual or perceived.

(2)

"knowingly permit" means to fail to advocate
corrective action where the lawyer knows* of a
discriminatory policy or practice that results in the
unlawful discrimination or harassment prohibited by
paragraph (b);

(3)

"unlawfully" and "unlawful" shall be determined by
reference to applicable state and federal statutes and
decisions making unlawful discrimination or
harassment in employment and in offering goods and
services to the public; and

(4)

"retaliate" means to take adverse action against a
person* because that person* has (i) opposed,or (ii)
pursued, participated in, or assisted any action
alleging, any conduct prohibited by paragraphs (a)(1)
or(b)(1) of this rule.
Comment

[1]

Conduct that violates this rule undermines confidence
in the legal profession and our legal system and is
contrary to the fundamental principle that all people
are created equal. A lawyer may not engage in such
conduct through the acts of another. (See rule 8.4(a).)
In relation to a law firm's operations, this rule imposes
on all law firm* lawyers the responsibility to advocate
corrective action to address known* harassing or
discriminatory conduct by the firm* or any of its other

19
lawyers or nonlawyer personnel. Law firm*
management and supervisorial lawyers retain their
separate responsibility under rules 5.1 and 5.3.
Neither this rule nor rule 5.1 or 5.3 imposes on the
alleged victim of any conduct prohibited by this rule
any responsibility to advocate corrective action.
[2]

The conduct prohibited by paragraph (a) includes the
conduct of a lawyer in a proceeding beforea judicial
officer. (See Cal. Code Jud. Ethics, canon 3B(6) ["A
judge shall require lawyers in proceedings before the
judge to refrain from manifesting, by words or conduct,
bias or prejudice based upon race, sex, gender, religion,
national origin, ethnicity, disability, age, sexual
orientation, marital status, socioeconomic status, or
political affiliation against parties, witnesses, counsel,
or others."].) A lawyer does not violate paragraph (a)
by referring to any particular status or group when the
reference is relevant to factual or legal issues or
arguments in the representation. While both the
parties and the court retain discretion to refer such
conduct to the State Bar, a court’s finding that
peremptory challenges were exercised on a
discriminatory basis does not alone establish a
violationof paragraph (a).

[3]

A lawyer does not violate this rule by limiting the
scope or subject matter of the lawyer's practice or by
limiting the lawyer's practice to members of
underserved populations. A lawyer also does not
violate this rule by otherwise restricting who will be
accepted as clients for advocacy-based reasons, as
required or permitted by these rules or other law.

[4]

This rule does not apply to conduct protected by the
First Amendment to the United States Constitution or
by Article I, section 2 of the California Constitution.

20

STATEMENT OF PROCEDURE
♦

The respondent in this certiorari, the State Bar of
California, granted relief to petitioner under a writ of
mandate which is case S263130. They gave explicit
instructions for petitioner to send additional evidence to
General Counsel's secretary by email. Petitioner did this
and the return emails of General Counsel kept
reassuring her that everything was going into her file,
she then asked, "what is my case number" and what does
it mean, "into my file?"
After the summary denial of case S263130 the State
Bar issued a letter in the form of an email to petitioner.
The email stated that they do not file stamp anything sent
via email and the California Supreme Court has already
decided the case.
attempting to contact the State Bar
After
petitioner requested they grant her an ADA
accommodation. The request was for communication by
the attorney deciding on the relief she was granted under
case S263130. It had seemingly been taken away before
being decided. 1
1 The Americans with Disabilities Act (ADA) became law in 1990. The ADA
is a civil rights law that prohibits discrimination against individuals with
disabilities in all areas of public life, including jobs, schools, transportation,
and all public and private places that are open to the general public. The
purpose of the law is to make sure that people with disabilities have the same
rights and opportunities as everyone else. The ADA gives civil rights
protections to individuals with disabilities similarto those provided to

21

Petitioner wrote in the accommodation request that
she is mentally disabled and suffers from anxiety disorder
that runs in her family. Petitioner explained that she is
able to relax when she is given an explanation to help her
understand why something is happening. Petitioner
further explained that worry is the pain of her anxiety.
The answer to petitioner’s accommodation arrived
on November 17, 2020. The State Bar’s denial concluded
that since petitioner did submit documents her anxiety
did not stand in the way.
Petitioner has never had communication with a
State Bar attorney who made a decision in any of the
complaints she filed. Petitioner did speak to General
Counsel's attorney briefly during the appeal of the first
complaints pertaining to the loss of her home. The result
was a denial of the appeal the same day as the
conversation and before petitioner was able to submit
what had been talked about. This was documented in case
S263130.
There was another case, S263808 that was decided
during the pendency of case S263130. Petitioner had
pleaded to the California Supreme Court in an
Application for Relief from Default, stating that she now

individuals on the basis of race, color, sex, national origin, age, and religion.
It guarantees equal opportunity for individuals with disabilities in public
accommodations, employment, transportation, state and local government
services, and telecommunications. The ADA is divided into five titles (or
sections) that relate to different areas of public life.

22

has jurisdiction for the petition for review of the first
complaints denied by the State Bar of California.
Petitioner asserted that the past effort for review case
S240820 was mistakenly decided by the court as "An
Accusation." Petitioner brought the State Bar law on an
accusation which states it is only for a State Bar member
and only after there is a trial in the State Bar court.
The California Supreme court ruled on the
application for default, by stating petitioner can file an
accusation against an attorney if the State Bar does not
act upon the relief it granted.
The application for relief from default submitted on
August 10, 2020, was denied in four days on August 14,
2020. The decision is in support only and may be found in
App. C.
Petitioner never received a timely mailing of the
decision, instead she was confused by the procedure. This
happened after the California Supreme Court issued a
letter on August 13, 2020. In the letter the court states
that case 8263808 is still pending.
The letter occurred after petitioner was told by the
court the cover of her petition for review made it "An
Accusation" again because she had put the attorney's
names in between hers and the State Bar. Petitioner
requested permission to change it and to file a statement
of jurisdiction. Then the order of August 14, 2020
happened before petitioner could file anything. The letter
may be found in App. C.

23

Petitioner received the August 14, 2020 decision
on August 20, 2020, when the clerk of the Supreme Court
of California emailed it to her at petitioner's request. This
email may be found in App. C Part 2.
There were two other letters of communication on
the Application that did not include case numbers. They
were on June 30, 2020 and May 29, 2020. Both letters
denied the application. They were signed by Mr. Robert
Toy, a Senior Deputy Clerk who communicated with
petitioner via her personal email only. This was similar to
the State Bar’s request for petitioner to send additional
evidence to them. The orders may be found in App.D Part
1 and 2.

REASONS FOR GRANTING CERTIORARI

It is documented that US Supreme Court Chief
Justice Chief John Marshall who was also the first
cousin of Thomas Jefferson stated that the smartest
person he knew was President James Madison.
President Madison suffered from anxiety yet he
wrote most of our US Constitution. He also spoke of
the worry of the detriment of the law being so
complicated that the common man would not
the
understand. This
most certainly
includes
application
not being confusing to the common
man. President Madison stated,

24

“It will be of little avail to the people that the laws
are made by men of their own choice if the Jaws be so
voluminous that they cannot he read, or so incoherent
that they cannot be understood."
The ADA does include the accommodation
communication that facilitates understanding.2

of

Petitioner could bring the many cases of this Court
regarding the freedom it has established under the First
Amendment, which clearly includes the freedom to allege
any behavior has caused discrimination.
Petitioner believes there is a better way to explain
why she deserves review or GVR of this case. It is by
bringing a justice of this Court and how he chose to use
the privilege of being an attorney and how he interpreted
the American Bar’s duty to protect the people.
The esteemed US Supreme Court Justice, Justice
Louis D. Brandeis, began the practice of law in Boston in
the year 1878 at the age of twenty-two. Eight years later
his practice was large, lucrative, and variegated. He was
no respecter of clients; he had his share of corporation
work along with other phases of legal practice. He frankly
confessed that he "even worked for a trust or two." But his
special interests lay in other fields-in matters of large

2 Tennessee v. Lane, 541 U.S. 509, Olmstead v. L.C. by Zimring, 527 U.S.
581. Pennsylvania Department of Corrections v. Yeskey, 524 U.S. 206. San
Francisco v. Sheehan, 135 S. Ct. 1765, all acknowledged that Title II of the
ADA applies to everything that a public entity does.

25

public interest in manifold and complicated social and
economic problems. His decision to curtail private practice
and give more and more time to public work was made
with full knowledge that it would involve financial
sacrifice and tremendous strain upon his vitality. It was
the result of a deliberate purpose to give the people expert
legal assistance in the support of general welfare
measures.
Referring in 1905 to the declining influence of the
lawyer in affairs of state, he insisted that the reason for
it was not lack of opportunity:
"Instead of holding a position of independence,
between the wealthy and the people, prepared to curb
the excesses of either, able lawyers have, to a large
extent, allowed them selves to become adjuncts ofgreat
corporations and have neglected the obligation to use
their powers for the protection of the people. We hear
much of the 'corporation lawyer' and far too little of the
'people's la wyer. The grea t opportunity of the American
Bar is and will be to stand again as it did in the past,
ready to protect also the interests of the people."
These words were spoken in an address delivered
before the Harvard Ethical Society at Harvard
University.
♦

Petitioner respectfully requests that if review is not
considered GVR be granted.

26

The history of GVR practice does allow litigants to
seekthe benefit of changes in the law that occur even after
final action by the courts of appeals (or state high courts).
And, perhaps more importantly, the GVR practice reflects
an institutional choice-' namely, that it is this Supreme
Court rather than some other court that will take
cognizance of these changes. In Lawrence v. Chater, 516
U.S. 163, 167 (1996) (explaining that the Court issues a
GVR when there is "a reasonable probability that the
decision below rests upon a premise that the lower court
would reject if given the opportunity", see Tyler v. Cain,
533 U.S. 656, 666 (2001).
In issuing a GVR, this Court does not determine the
intervening event. Thus, the purpose of the GVR device is
to give the lower court the initial opportunity to consider
the possible impact of intervening developments. In the
case Cayuga Indian Nation of NY.v. Pataki, 413 F.3d
266, 273, 280 (2d Cir. 2005) (relying on a new Supreme
Court case to reverse a district court decision that was the
culmination of over two decades of litigation). Rather than
applying new law itself, a court of appeals can return the
case to the district court so that the district court can
apply the new law in the first instances procedure
analogous to the Supreme Court's GVR. See, e.g.,
Vicknair v. Formosa Plastics Corp., 98 F.3d 837,839 (5th
Cir. 1996). The point is simply that the court of appeals
generally is not free to ignore the intervening
developments and decide the case based on the law
prevailing at the time of the district court's judgment.

27

In the ease Youngblood v. West Virginia, which
raised the profile of the GVR practice even though
Youngblood was, if truly a GVR at all, a very
unconventional one. As already stated, the usual reason
for issuing a GVR is to allow the lower court the initial
opportunity to consider an intervening development. In
Youngblood, the Court provided a short per curiam
opinion (itself unusual for a GVR) explaining that the
reason for the remand was to allow the court below to
address the defendant's facially plausible claim,
adequately presented to the lower court yet not discussed
in its opinion, that prosecutor withheld evidence in
violation of Brady v. Maryland, a case decided over forty
years ago. Thus, if the lower court's decision in
Youngblood was doubtful, it was not because of any
intervening event as in the typical GVR. Yet while this
Supreme Court was moved enough to take some action
(rather than simply denying certiorari, as it does for
countless incorrect decisions), it was not moved enough to
grant plenary review or even to issue a summary reversal.
Instead, it GVR'd because if this Court is to reach the
merits of this case, it would be better to have the benefit
of the views of the full Supreme Court of Appeals of West
Virginia on the Brady issue.
When certiorari was initially denied in several cases
challenging criminal sentences, petitions for rehearing
were filed while this Court considered the certiorari
petition in United States v. Booker, 543 U.S. 220 (2005)
(certiorari granted Aug. 2, 2004).

28

After this Court granted certiorari in Booker and
resolved the case on the merits, this Court then granted
hundreds of rehearing petitions and GVR'd in light of
Booker. See, e.g., Hawkins v. United States, 543 U.S. 1097
(2005) ( Petition for rehearing granted. Order denying the
petition for writ of certiorari vacated. Petition for writ of
certiorari granted. Judgment vacated, and
case
remanded in light of United States v. Booker.").
The

GVR

practice
reminds
us
that,
notwithstanding, its unique role as the final expositor of
the national law, this Supreme Court remains a court
that operates within the judicial system and derives its
authority to announce legal rules from a grant of
jurisdiction over individual cases and controversies.
♦

Petitioner respectfully requests this Court invoke
its jurisdiction and act upon this petition.
Signed under the penalty of perjury on April 23,
2021.

Michelle Stopyra Yaney

29

VERIFICATION
♦

I, Michelle Stopyra Yaney declare as follows:
I am the petitioner and I have read the
attached Petition for Writ of Certiorari to the
California Supreme Court.
I verify that all the facts alleged therein or
otherwise and supported by citations to the record
are true.
Signed under the penalty of perjury, April 23,
2021.

77] uXjJIji
Michelle Stopyra Yaney

■I

30

THE WORD COUNT
♦

Petitioner hereby certifies that the attached
petition for writ of certiorari was produced using
13-point Century font for the general body. The count
excludes the parts of the petition that are exempt. The
total word count is 9,217.
The word count was calculated by Microsoft
Office. Petitioner relies on the computer program
which was also used to prepare this petition that it
is true and accurate.
Signed under the penalty of perjury, April 23,
2021.

YTl \aJ\j l L c

4/KiiJ

Michelle Stopyra Yaney

FOUR PAGES RESERVED DUE TO CORRECTION

